No. 20-157
In the

Supreme Court of the United States
__________________

EDWARD A. CANIGLIA,
Petitioner,
v.
ROBERT F. STROM, ET AL.,
Respondents.
__________________
On Writ of Certiorari to the United States Court of
Appeals for the First Circuit

__________________
BRIEF OF IOWA, LOUISIANA, MINNESOTA,
MONTANA, OKLAHOMA, SOUTH CAROLINA,
SOUTH DAKOTA, TEXAS, AND UTAH AS
AMICI CURIAE IN SUPPORT OF
RESPONDENTS
__________________
SEAN D. REYES
Utah Attorney General

MELISSA HOLYOAK*
Utah Solicitor General

DAVID SIMPSON
Assistant Solicitor General

THOMAS B. BRUNKER
Deputy Solicitor General,
Criminal Appeals

350 N. State Street, Suite 230
P.O. Box 142320
Salt Lake City, UT 84114-2320
(801) 538-9600
melissaholyoak@agutah.gov
* Counsel of Record

JEFFREY S. GRAY
Search & Seizure Section
Director

Counsel for Amici Curiae
[ADDITIONAL COUNSEL WITH SIGNATURE BLOCK]

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the “community caretaking” exception to
the Fourth Amendment’s warrant requirement extends to the home.

ii
TABLE OF CONTENTS
QUESTION PRESENTED ......................................... i
TABLE OF CONTENTS ............................................ ii
TABLE OF AUTHORITIES ..................................... iv
INTEREST OF AMICI CURIAE ................................1
SUMMARY OF ARGUMENT.....................................2
ARGUMENT ...............................................................8
A. The emergency aid exception permits
police officers’ warrantless entry into a
home and related seizures when there is
an imminent threat of serious harm to an
occupant. ...........................................................9
B. The confusion that gave rise to the
question presented results from the lower
courts misreading the community
caretaking interest as a warrant exception. ...13
1. Cady did not create a caretaking
“exception” but merely recognized the
government’s community caretaking
interests and applied traditional Fourth
Amendment standards to the unique
facts of the case in deciding that the
warrantless car search was reasonable. ....15

iii
2. Cady was a forerunner to this Court’s
adoption of the inventory exception to
the warrant requirement for searching
a lawfully-impounded automobile, but
that exception does not limit the
broader application of the Fourth
Amendment standards applied in Cady. ..19
3. Lower courts have created a variety of
community caretaking “exceptions” that
incorrectly limit the scope of the
government’s public safety interests
and the searches that advance those
interests. .....................................................22
C. The warrantless seizure of Petitioner for a
psychiatric evaluation and the temporary
seizure of his guns in his home fell within
the emergency aid exception. .........................24
CONCLUSION ..........................................................28

iv
TABLE OF AUTHORITIES
FEDERAL CASES
Brigham City v. Stuart, 547 U.S. 398 (2006) ... passim
Birchfield v. North Dakota, 136 S. Ct. 2160 (2016)
............................................................................... 22
Cady v. Dombrowski, 413 U.S. 433 (1973) ....... passim
Camara v. Municipal Court of City and County of
San Francisco, 387 U.S. 523 (1967) .............. passim
Cooper v. California, 386 U.S. 58 (1967) ..... 18, 20, 21
Delaware v. Prouse, 440 U.S. 648 (1979) .................. 3
Ellison v. Lesher, 796 F.3d 910 (8th Cir. 2015)....... 14
Harris v. United States, 390 U.S. 234 (1968) .... 20, 21
Illinois v. Caballes, 543 U.S. 405 (2005) ................. 11
Illinois v. Lafayette, 462 U.S. 640 (1983) ................ 22
Kentucky v. King, 563 U.S. 452 (2011) .................... 12
Michigan v. Fisher, 558 U.S. 45 (2009) ............. 11, 13
Mincey v. Arizona, 437 U.S. 385 (1978)................... 12
Scott v. United States, 436 U.S. 128 (1978)............. 11
South Dakota v. Opperman, 428 U.S. 364 (1976) ... 21
Sutterfield v. City of Milwaukee, 751 F.3d 542 (7th
Cir. 2014) ........................................................ 14, 24
Terry v. Ohio, 392 U.S. 1 (1968) .............................. 11

v
United States v. Bute, 43 F.3d 531 (10th Cir. 1994)
............................................................................... 24
United States v. Cervantes, 703 F.3d 1135 (9th Cir.
2012)...................................................................... 22
United States v. Chavez, No. 19-2123, 2021 WL
191660, ___ F.3d ___ (10th Cir. Jan. 20, 2021) ... 24
Warden v. Hayden, 387 U.S. 294 (1967).................. 11
STATE CASES
State v. McCormick, 494 S.W.3d 673 (Tenn. 2016) ... 2

INTEREST OF AMICI CURIAE
Amici states have a substantial interest in ensuring that their peace officers have clear and consistent
guidance on what the Fourth Amendment requires of
them when fulfilling their duties to further legitimate
government interests. What is clear is that this case
implicates a state’s legitimate community caretaking
interest to protect the public from serious harm. And
there is no dispute that under the Fourth Amendment
that interest may—and in this case did—justify a
search and seizure. What is left is whether the circumstances here justified a warrantless search.
And in the lower courts, that is where the clarity
ends—they have split on whether what they call a
community caretaking exception can justify warrantless searches and seizures in the home. But the Amici
states believe that the emergency aid exception—as
laid out in Brigham City v. Stuart—already covers
that situation. 547 U.S. 398 (2006).
There, this Court held that “police may enter a
home without a warrant when they have an objectively reasonable basis for believing that an occupant
is seriously injured or imminently threatened with
such injury.” Id. at 400. That rule, properly applied,
provides the straightforward guidance police officers
need to determine when the Fourth Amendment permits warrantless searches of a home and related seizures to further the government’s community
caretaking interest in protecting the public’s safety.
Applying that rule here, the officers’ seizure of

2
Petitioner for psychiatric evaluation and their subsequent entry into his home and seizure of his guns was
reasonable under the emergency aid exception. 1
SUMMARY OF ARGUMENT
“Police officers wear many hats: criminal investigator, first aid provider, social worker, crisis intervener, family counselor, youth mentor and
peacemaker, to name a few.” State v. McCormick, 494
S.W.3d 673, 683 (Tenn. 2016) (cleaned up). In other
words, officers function in all kinds of roles serving
various public interests. For example, officers conduct searches and seizures justified by the government’s interest in preventing and detecting crime.
They also conduct searches and seizures justified by
the government’s various community caretaking interests, including protecting the public from serious
harm. All those searches and seizures are subject to
the Fourth Amendment.
This Court has formulated standards by which a
particular search or seizure is judged “by balancing
its intrusion on the individual’s Fourth Amendment
interests against its promotion of legitimate governmental interests.” Delaware v. Prouse, 440 U.S. 648,
654 (1979). There is no question that the officers here
were acting to further a legitimate and weighty government interest—protecting citizens from serious
1 Because the question presented is limited to the Fourth
Amendment, this case presents no occasion to consider whether
seizing the guns implicated Petitioner’s Second Amendment
rights.

3
harm—that justified a search. But the governmental
interest alone will not justify a warrantless search.
The question here is whether, under the Fourth
Amendment, the totality of the circumstances permitted a warrantless search.
Officers took Petitioner from his home, transported him to a hospital for a psychiatric evaluation,
then, not knowing when he might return to the home
or what his mental state might be, temporarily removed his guns from the home. The officers were responding to Petitioner’s wife’s request for a wellness
check. The night before, Petitioner had retrieved one
of his guns, threw it on the table, and asked his wife
to shoot him. She was so concerned about her husband’s behavior that she left the home and stayed at
a motel that night, hiding the magazine to one of his
guns. When she was unable to reach Petitioner the
following morning, she called police and requested
that they accompany her to check on Petitioner.
When police made contact with Petitioner that morning and asked about his mental health, he appeared
calm to the officers, but he told them to mind their
own business. His wife told police that he still appeared angry. These circumstances raised concerns
that Petitioner may have posed an imminent threat
to himself or others.
This Court has been asked to address whether
what lower courts—including the First Circuit here—
have called a “community caretaking” warrant exception should extend to home searches such as this one.
But there is no rule that needs to be extended to

4
address the warrantless search in this case. The
emergency aid exception already addresses whether
the circumstances here justified a warrantless search
and seizure. See Brigham City v. Stuart, 547 U.S. 398
(2006).
That exception permits warrantless searches
when the facts and circumstances provide “an objectively reasonable basis for believing that an occupant
is seriously injured or imminently threatened with
such injury.” Id. at 400. Although mislabeled a “community caretaking” warrant exception, the First Circuit effectively applied Brigham City’s emergency aid
standard. Compare Pet. App. 17a (“objectively reasonable basis for believing [an occupant] is suicidal or
otherwise poses an imminent risk of harm to himself”), with Brigham City, 547 U.S. at 400. And there
is no question about the validity of the emergency aid
exception.
This case is before the Court partly because of a
confusion in nomenclature. The lower courts have referred to a “community caretaking” warrant exception. But “community caretaking” merely describes a
variety of governmental interests, apart from its interest in the prevention and detection of crime, that may
justify searches and seizures. It does not describe circumstances that would explain why a warrant isn’t
required—i.e., an exception.
The confusion stems from an overreading of the
“community caretaking” language in Cady v. Dombrowski, 413 U.S. 433 (1973). There, this Court

5
recognized that police officers “frequently investigate
vehicle accidents in which there is no claim of criminal liability and engage in what … may be described
as community caretaking functions.” Id. at 441. In
other words, the Court recognized that police perform
functions that serve governmental interests in community caretaking, apart from its interest in preventing and detecting crime. And Cady recognized that
such searches and seizures, like those that are justified by the government’s crime-prevention-and-detection interest, are subject to the Fourth Amendment.
Id. at 447-48.
It wasn’t the public policy interest in community
caretaking alone that made the warrantless search in
Cady constitutional. That community caretaking interest justified a search and seizure. But, it was the
totality of all the circumstances in the case that led
the Court to find that a warrant was not needed to
satisfy the Fourth Amendment’s “ultimate standard”
of reasonableness. Id. at 439, 442-43.
And because Cady involved the search of an automobile, some courts have interpreted the community
caretaking “exception” as limited to warrantless
searches and seizures of automobiles. In concluding
that the warrantless search in Cady was reasonable,
the Court looked in part to the attributes of an automobile—its mobility, lowered expectation of privacy,
etc. Id. at 441-42. But those attributes did not define
the limits of when the Fourth Amendment permits
warrantless searches and seizures in furtherance of
legitimate government caretaking interests. Instead,

6
those attributes, and the fact patterns in Cady and
similar predecessor cases, set the groundwork for a
categorical warrant exception that is limited to the inventory search of automobiles lawfully impounded by
police.
So when police lawfully take an automobile into
custody, they may conduct a warrantless inventory
search of the car consistent with standard police procedure. While this Court calls it the inventory exception, some lower courts call it the community
caretaking exception. That is the exception to which
Petitioner wrongly refers. The Amici states agree
that the inventory exception cannot apply to a home.
While police may conduct inventory searches and
seizures as part of their community caretaking functions, the inventory search does not define the universe of searches and seizures justified by the
government’s community caretaking interests, nor
the universe of circumstances when a warrant is not
required. Accordingly, some lower courts have recognized a broader, “community caretaking” exception
that justifies warrantless searches and seizures in
contexts that extend beyond lawfully impounded vehicles. Warrantless searches under this exception are
justified by the government’s community caretaking
interest in the public’s safety together with the need
for prompt action.
But again, this Court has already set the standard for warrantless home searches in furtherance of
the government’s community caretaking interests in

7
public safety—when police have “an objectively reasonable basis for believing” that prompt entry is necessary to provide aid to someone who is “seriously
injured or imminently threatened with such injury.”
Brigham City, 547 U.S. at 400. While disentangling
the government’s community caretaking interests
recognized in Cady from this Court’s inventory exception would clarify some of the confusion in the lower
courts, there is no confusion about the exception that
applies to this and like cases—the emergency aid exception, and it extends to the home.
All that is left to decide here is whether the warrantless entry into Petitioner’s home and the warrantless seizure of him and his guns met the “ultimate
standard” of reasonableness. The answer turns on
whether the elements of the emergency aid exception
applied. They did. Officers had an objectively reasonable basis to believe there was an imminent risk that
Petitioner might harm himself or others, justifying
both his seizure for transport to the hospital for a psychiatric evaluation and the officer’s entry into his
home to retrieve the weapons he might use to do so.

8
ARGUMENT
This Court has already decided that a warrantless entry into a home may be justified by the
government’s community caretaking interest in
protecting individuals from the imminent risk
of serious harm and the need to act promptly—
the emergency aid exception.
This Court has been asked to determine whether
a community caretaking exception should be extended to warrantless home searches. There is no
need to extend any exception because one already applies—the emergency aid exception. The emergency
aid exception permits a warrantless search of and related seizure in the home when there is an imminent
threat of serious harm. That search and seizure is
conducted in furtherance of the government’s community caretaking interests to protect public health and
safety. Lower courts have misapplied this Court’s
precedent to create a variety of warrant exceptions labeled “community caretaking” exceptions. But while
the government’s community caretaking interest may
justify a search, that interest alone does not justify an
exception to the warrant requirement.

9
A. The emergency aid exception permits
police officers’ warrantless entry into a
home and related seizures when there is
an imminent threat of serious harm to an
occupant.
This Court is being asked to consider whether a
so-called “community caretaking” exception to the
warrant requirement should be extended to warrantless searches of a home and related seizures. As explained in Section B below, that question is rooted in
confusing this Court’s recognition of a governmental
community caretaking interest with a separate warrant exception.
But this Court has already recognized that the
government’s interest in protecting the public from
imminent threats of serious harm—a quintessential
community caretaking interest—extends to the home.
And it has established when warrantless searches in
furtherance of that interest are constitutional. So the
search and related seizures at issue here—the seizure
of a person believed to pose a suicide risk and the seizure of his guns (the instrument he had threatened to
use)—are already covered by this Court’s well-recognized precedent. There is no rule that needs to be extended.
In Brigham City v. Stuart, this Court held that
“police may enter a home without a warrant when
they have an objectively reasonable basis for believing
that an occupant is seriously injured or imminently
threatened with such injury.” 547 U.S. 398, 400
(2006). The Court reaffirmed Brigham City three

10
years later in Michigan v. Fisher, holding that an officer’s warrantless entry is permitted under the
Fourth Amendment so long as “there [is] ‘an objectively reasonable basis for believing’ that medical assistance [is] needed, or persons [are] in danger.” 558
U.S. 45, 49 (2009) (quoting Brigham City, 558 U.S at
406).
Brigham City explained that whether a warrantless home search is reasonable is an objective inquiry:
“An action is ‘reasonable’ under the Fourth Amendment, regardless of the individual officer’s state of
mind, ‘as long as the circumstances, viewed objectively, justify [the] action.’ ” 547 U.S. at 404 (quoting
Scott v. United States, 436 U.S. 128, 138 (1978)) (emphasis added in Brigham City).
And as in all Fourth Amendment cases, an emergency aid search must not only be “lawful at its inception,” but must also be “executed in a reasonable
manner.” Illinois v. Caballes, 543 U.S. 405, 408
(2005); accord Brigham City, 547 U.S. at 406 (holding
that the “manner of the officers’ entry was also reasonable”). Accordingly, “[t]he scope of the search
must be ‘strictly tied to and justified by’ the circumstances which rendered its initiation permissible.’ ”
Terry v. Ohio, 392 U.S. 1, 19 (1968) (quoting Warden
v. Hayden, 387 U.S. 294, 310 (1967) (Fortas, J., concurring)).
This Court has identified “emergency aid” as one
exigency that falls under the “well-recognized” exigent circumstances exception to the warrant

11
requirement—“when ‘ “the exigencies of the situation”
make the needs of law enforcement so compelling that
a warrantless search is objectively reasonable under
the Fourth Amendment.’ ” Kentucky v. King, 563 U.S.
452, 460 (2011) (quoting Mincey v. Arizona, 437 U.S.
385, 394 (1978)) (cleaned up).
Under this Court’s emergency aid standard, police may, in the interest of public safety and under appropriate circumstances, enter homes to quell and
protect against threatened domestic violence, address
suicide risks, and conduct wellness checks—community caretaking functions. Although Brigham City addressed only a search (entry into a home), its objective
reasonable-basis-to-believe standard may also provide the basis for the seizure of persons or things—
when there is an objectively reasonable basis for believing someone poses a serious danger to himself or
others or when there is an objectively reasonable basis for believing that the removal of, for example,
weapons, drugs, or poisons, is necessary for the protection of others.
And in substance, emergency aid is the exception
the First Circuit applied here even though it denominated the exception “community caretaking.” Under
this Court’s emergency aid exception, the question is
whether officers “have an objectively reasonable basis
for believing that an occupant is seriously injured or
imminently threatened with such injury.” Brigham
City, 547 U.S. at 400 (emphasis added). Likewise, the
question under the First Circuit’s community caretaking “exception” is whether the officers had “an

12
objectively reasonable basis for believing” that an occupant “pose[d] an imminent risk of harm to himself
or others.” Pet. App. 17a (emphasis added). There is
no daylight between the two. See also Fisher, 558
U.S. at 48 (concluding that it was “objectively reasonable to believe” that Fisher would either harm someone or “hurt himself in the course of his rage”).
In a footnote, the First Circuit below drew a distinction between its community caretaking exception
and this Court’s emergency aid exception. It surmised that this Court’s emergency aid exception applies when the injury has already occurred or is
“moments” away and that its community caretaking
exception applies to imminent threats that may materialize sometime later, as for example, when someone has made a credible threat of suicide. Pet. App.
12a n.5, 21a. But Brigham City does not so limit the
exception. It requires an imminent threat, not an immediate threat. So long as police have an objectively
reasonable basis for believing that the risk of imminent harm remains unabated, the exception applies. 2
Other lower courts have recognized the absence of any real
difference between their community caretaking exceptions and
this Court’s emergency aid exception—“whether denoted as an
exception to the warrant requirement for ‘community caretaking’ or ‘emergency aid,’ ” police “ ‘may enter a residence without
a warrant ... where the officer has a reasonable belief that an
emergency exists requiring his or her attention.’ ” Ellison v.
Lesher, 796 F.3d 910, 915 (8th Cir. 2015) (citation omitted). And
although the Seventh Circuit Court of Appeals has retained a
distinction between its community caretaking exception and the
2

13
In sum, this case does not really pose a question
about whether a rule needs to be extended to cover
the warrantless search and seizures at issue here. It
is already covered by a well-established rule—the
emergency aid exception, which may be invoked when
police officers are serving the government’s community caretaking interest. And that is the only clarification that needs to be made.
B. The confusion that gave rise to the question presented results from the lower
courts misreading the community caretaking interest as a warrant exception.
Petitioner asks this Court to resolve whether a socalled community caretaking exception should be extended from automobile searches to home searches.
Petitioner says it shouldn’t.
But as explained, this Court has already resolved
that the community caretaking interest in protecting
the public from serious harm extends to the home and
delineated the exigent circumstances that make a
warrantless entry reasonable under the Fourth
Amendment—the emergency aid exception.
The community caretaking language the lower
courts have relied on to name a warrant exception

emergency aid exception, it applied the emergency aid exception
in upholding the response of police to a potentially suicidal individual under facts similar to this case. Sutterfield v. City of Milwaukee, 751 F.3d 542, 560-66 (7th Cir. 2014).

14
comes from Cady v. Dombroski. But Cady did not create a “community caretaking” or any other exception.
First, Cady taught that traditional Fourth
Amendment standards of reasonableness govern police functions tied to the government’s “community
caretaking” interests—just as they govern police functions tied to the government’s interest in preventing
and detecting crime. 413 U.S. at 440-42. Then, applying those standards to the search in that particular
case, involving a car, the Court examined whether the
warrantless search satisfied the Fourth Amendment’s
“ultimate standard” of reasonableness. Id. at 439-48.
Cady’s recognition of a legitimate caretaking interest
did not create a freestanding caretaking exception.
Second, Cady was part of a collection of cases that
eventually evolved into this Court’s recognition of a
categorical inventory exception for impounded vehicles. But Cady itself did not purport to create a narrow inventory exception or any other freestanding
caretaking exception—it was a straightforward application of Fourth Amendment principles to the particular facts of the case. And although the Court partly
relied on the lesser expectation of privacy enjoyed in
automobiles in its totality-of-the-circumstances analysis, it did not suggest that other circumstances could
not justify a warrantless home search undertaken in
furtherance of a community caretaking interest. Petitioner’s focus on inventory search analysis is thus
misplaced.

15
Third, and for the same reasons, lower courts
have misapplied the “community caretaking” language of Cady to create a variety of community caretaking “exceptions.” Mislabeling the government’s
community caretaking interest as an exception both
incorrectly limits the scope of the government’s community caretaking interests and the universe of
searches available to advance those interests.
1. Cady did not create a caretaking “exception” but merely recognized the
government’s community caretaking
interests and applied traditional
Fourth Amendment standards to the
unique facts of the case in deciding
that the warrantless car search was
reasonable.
In Cady, police directed that a car involved in a
single-car accident be towed to a privately-owned garage, and the wrecker then left the car unsecured outside that garage. Id. at 435-36. Officers later
suspected that a gun may be in the car’s trunk: the
driver, who was arrested for drunk driving, was a Chicago policeman; officers believed regulations required
him to carry his service revolver at all times; and officers found no gun on his person or in the car’s passenger compartment before it was towed. Id. at 436.
As a matter of “standard procedure,” an officer drove
to the garage and searched the car’s trunk for a gun
but found evidence of a murder instead. Id. at 43637.

16
This Court identified two community caretaking
functions at stake in Cady: (1) attending to the aftermath of “vehicle accidents,” id. at 441, and (2) protecting “the safety of the general public,” id. at 447.
Recognizing that the Fourth Amendment applies to
all police functions involving a search or seizure—including those that advance “community caretaking”
interests—the Court engaged in a traditional totalityof-the-circumstances analysis to decide whether the
car search “was unreasonable solely because” police
did not obtain a warrant, and if not, whether the warrantless search otherwise satisfied the Fourth
Amendment’s “ultimate standard” of reasonableness.
Id. at 439-48.
In finding the warrantless search reasonable, the
Court relied on a combination of three facts: (1) the
search was of a car, where the expectations of privacy
are not as great as in the home, id. at 439-40; (2) “police had exercised a form of custody or control over”
the car, id. at 442-43; and (3) “the search of the trunk
to retrieve the revolver was standard procedure … to
protect the public from the possibility that a revolver
would fall into untrained or perhaps malicious
hands.” Id. at 439-43, 447-48 (cleaned up).
In sum, Cady was a straightforward application
of Fourth Amendment principles to the unique facts
of the case. And although the Court relied in large
part on the lesser expectation of privacy enjoyed in
automobiles in its totality-of-the-circumstances analysis, it did not suggest that other circumstances could
not justify a warrantless home search undertaken in

17
furtherance of a community caretaking interest. That
question was not before the Court. To this point the
Court quoted a passage from a prior case:
[W]hether a search and seizure is unreasonable within the meaning of the Fourth Amendment depends upon the facts and
circumstances of each case and … searches of
cars that are constantly movable may make
the search of a car without a warrant a reasonable one although the result might be the
opposite in a search of a home, a store, or
other fixed piece of property.
Id. at 440 (quoting Cooper v. California, 386 U.S. 58,
59 (1967). In other words, while a warrantless home
search might be unreasonable, it also might be reasonable depending on the circumstances.
And while the search at issue in Cady involved an
automobile, this Court had already recognized that
governmental caretaking interests are not limited to
situations involving vehicles. This is evident from a
case Cady relied on. In Camara v. Municipal Court of
City and County of San Francisco, 387 U.S. 523
(1967), the Court explained the inquiry this way:
In assessing whether the public interest [in
the public’s health and safety] demands creation of a general exception to the Fourth
Amendment’s warrant requirement, the question is not whether the public interest justifies
the type of search [or seizure] in question, but
whether the authority to search should be

18
evidenced by a warrant, which in turn depends in part upon whether the burden of obtaining a warrant is likely to frustrate the
governmental purpose behind the search.
Id. at 533 (emphasis added).
As in Camara, the public interest implicated here
is the government’s community caretaking interest in
the health and safety of the public. And the Court in
Camara recognized that protecting the public from
harm is a substantial government interest that can
justify a search or seizure. 387 U.S. at 533 (recognizing that public health and safety justifies building inspections).
Although the Camara Court observed that a warrant was still required for routine building inspections, even those conducted to prevent the
development of conditions which could lead to devastating fires and epidemics, id. at 534-35, it also emphasized that its holding did not “foreclose prompt
inspection[] [searches], even without a warrant, that
the law has traditionally upheld in emergency situations.” Id. at 539 (emphasis added).
Cady and Camara confirm that the government’s
community caretaking interest in protecting public
safety extends beyond automobiles and may justify a
search or seizure. Circumstances may sometimes dispel of the warrant requirement for that search or seizure, but the governmental interest alone does not
create the exception for the warrant.

19
2. Cady was a forerunner to this Court’s
adoption of the inventory exception to
the warrant requirement for searching a lawfully-impounded automobile,
but that exception does not limit the
broader application of the Fourth
Amendment standards applied in
Cady.
In concluding that the car search was reasonable
under the circumstances, Cady relied on two cases upholding searches of impounded vehicles—Cooper v.
California, 386 U.S. 58 (1967), and Harris v. United
States, 390 U.S. 234 (1968). The Court held that although “police did not have actual, physical custody” of
the car as in Cooper and Harris, it had been lawfully
towed to the garage “at the officers’ directions” because “it represented a nuisance.” Cady, 413 U.S. at
446-47. The Court then noted that the “justification”
for the car search in Cooper was “to guarantee the
safety of the custodians,” and in Harris, “to safeguard
the owner’s property.” Id. at 447. The Court held that
the justification in Cady was just “as immediate and
constitutionally reasonable”—“the safety of the general public who might be endangered if an intruder
removed a revolver from the trunk of the vehicle.” Id.
Three years later, this Court addressed another
car search—this time of an abandoned vehicle that
police had lawfully impounded. South Dakota v. Opperman, 428 U.S. 364 (1976). Relying on its decisions
in Cooper, Harris, and Cady, the Court concluded that
the search of the impounded vehicle, performed

20
according to standard police procedures, “was not ‘unreasonable’ under the Fourth Amendment.” Id. at
372-76. In doing so, the Court recognized three community caretaking interests justifying inventory
searches involving lawfully impounded vehicles: (1)
“the protection of the owner’s property while [the automobile] remains in police custody,” (2) “the protection of the police against claims or disputes over lost
or stolen property,” and (3) “the protection of the police from potential danger.” Id. at 369.
This Court later solidified this line of reasoning
and recognized that an inventory search of an automobile in police custody is a “well-defined exception to
the warrant requirement.” Illinois v. Lafayette, 462
U.S. 640, 643 (1983). It has become what may be
characterized as a “categorical” exception to the warrant requirement. The “commonalities” among this
class of cases—community caretaking searches of impounded vehicles under standard police procedures—
“justify dispensing with the warrant requirement for
all of those cases, regardless of their individual circumstances.” See Birchfield v. North Dakota, 136
S. Ct. 2160, 2188 (2016) (Sotomayor, J., concurring in
part and dissenting in part). The inventory exception
applies categorically to all lawfully impounded vehicles “because the need for the warrantless search
arises from the very ‘fact of the lawful [impoundment],’ not from the reason for [impoundment] or the
circumstances surrounding it.” Id. at 2189 (citation
omitted).

21
But what is now understood by this Court as the
inventory exception was not immediately apparent in
Cady. And this has led some lower courts to call this
exception by the name “community caretaking.” See,
e.g., United States v. Cervantes, 703 F.3d 1135, 1141
(9th Cir. 2012) (explaining that “community caretaking exception” permits police to impound vehicles posing risk to public safety or impeding traffic flow and
then conduct inventory search consistent with police
department’s standard procedures).
Petitioner appears to speak to that exception.
Pet.Br. 13-20. And the Amici states agree that an inventory exception cannot apply to the home.
But the “community caretaking” label is a poor fit
for the restrictive and categorical inventory-search
exception. The government’s legitimate interest in
“community caretaking” by its very nature goes beyond impounded vehicles. See, e.g., Camara, 387 U.S.
at 535. And as explained in Section A above, this
Court’s emergency aid exception applies to the community caretaking interests at issue here.
Cady may have contributed to the evolution of the
inventory-search exception, but the inventory exception neither limits governmental community caretaking interests to impounded vehicles, nor does the
inventory exception affect Cady’s broader rule—that
warrantless searches in furtherance of a community
caretaking interest are constitutional when they meet
the ultimate standard of reasonableness under the totality of the circumstances.

22
3. Lower courts have created a variety of
community caretaking “exceptions”
that incorrectly limit the scope of the
government’s public safety interests
and the searches that advance those
interests.
The problem that has led to the confusion in the
lower courts largely arises from the specific search in
Cady—an automobile search. But while the “totality
of circumstances” in Cady included the attributes of
an automobile, that did not define the scope of the
government’s community caretaking interest.
As explained above, some courts have called the
inventory-search exception by the name “community
caretaking.” Relying on the broader principles identified in Cady, other lower courts have gone beyond
the inventory search. Some have held that a broader
exception called “community caretaking” permits intrusions into vehicles not in police custody—and
therefore outside the categorical inventory-search exception—when specific facts demonstrate a “publicsafety need.” United States v. Chavez, No. 19-2123,
2021 WL 191660, at *7-8, ___ F.3d ___ (10th Cir. Jan.
20, 2021). Still, pointing to Cady’s emphasis that
there is a “constitutional difference between houses
and cars,” 413 U.S. at 439 (citation omitted), these
courts limit the exception to automobiles. See United
States v. Bute, 43 F.3d 531, 535 (10th Cir. 1994);
Sutterfield v. City of Milwaukee, 751 F.3d 542, 554-56
(7th Cir. 2014).

23
No doubt drawing from the lessons in both Camara and Cady, the First Circuit adopted an even
broader exception called “community caretaking” that
extends to the home. Recognizing that “[t]hreats to
individual and community safety are not confined to
the highways,” it interpreted the broader exception as
extending to warrantless searches and seizures inside
the home. Pet. App. 16a. It thus held that a warrantless search or seizure, even in the home, is permitted
under what it dubbed the community caretaking exception when there is “an objectively reasonable basis
for believing” that a person is in “imminent risk of
harm.” Pet. App. 17a. 3
The “community caretaking” label for these
broader-encompassing, warrantless searches is somewhat of a misnomer and can be misleading. “Community caretaking” is shorthand for a broad range of
public interests a search or seizure may serve. That
is what Camara recognized. 387 U.S. at 535. But Camara also recognized that it is not the reason for dispensing with the warrant requirement. Id. at 533.
As explained in Section A above, when a warrantless search and seizure takes place in a home, the
search is not constitutional simply because police
3 Some courts have also extended their community caretaking exception to warrantless searches and seizures conducted in
furtherance of other community caretaking interests, such as
protecting private property or even quelling noise disturbances.
This case addresses the community caretaking exception only as
it applies to the need to promptly act in furtherance of public
safety.

24
officers were conducting a search that served a community caretaking interest in protecting an occupant.
That is merely why a search may be justified, but it is
not the reason for dispensing with a warrant. It’s the
need to act promptly that may justify that.
This Court has already recognized that the community caretaking interest in protecting the public
from serious harm may justify a search of a home and
related seizures. And it has already answered when
that search may be done without a warrant. No extension is necessary. The Court need only reaffirm
that the emergency aid exception is the rule that applies to warrantless home searches in furtherance of
the community caretaking interest in the public’s
safety.
C. The warrantless seizure of Petitioner for
a psychiatric evaluation and the temporary seizure of his guns in his home fell
within the emergency aid exception.
The officers’ seizure of Petitioner for a psychiatric
evaluation and their subsequent entry into his home
and removal of his handguns was constitutional under the emergency aid exception.
First, as the First Circuit explained below, “the
facts available to the officers at the time” supported
an objectively reasonable basis for believing that
there was an imminent risk Petitioner might seriously harm himself or others, justifying his seizure for
a psychiatric evaluation. Pet. App. 23a. Officers
knew he had retrieved a gun during a dispute with his

25
wife the night before and implored her to shoot him;
they knew that his wife was so distraught by his behavior that she spent the night in a hotel; and they
knew that his wife was unable to reach her husband
by phone the following morning and was so concerned
that he may have committed suicide that she asked
police to conduct a wellness check. Id. at 4a, 23a.
It is true that some 12 hours had elapsed since
Petitioner’s fight with his wife. Id. at 26a. And it is
true that when police finally spoke with Petitioner at
his home, his demeanor seemed calm, and he denied
that he was suicidal. Id. at 26a-27a.
But when police asked him about his mental
health, he told officers to mind their own business and
his wife told police that he still seemed angry. Id. at
5a. As the First Circuit observed, “suicidal individuals are not apt to be the best judges of their own mental health.
Common sense teaches that such
individuals may deliberately conceal or downplay
their self-destructive impulses, particularly when
speaking with the police.” Id. at 27a.
Undoubtedly, the officers’ seizure of Petitioner
was a significant intrusion, but the totality of these
circumstances provided an objectively reasonable basis for believing that Petitioner “might do harm to
himself or others, particularly when [his] wife continued to express urgent concerns about [his] well-being
the morning after his disturbing interaction with
her.” Id. at 26a.

26
Second, although Petitioner had been taken to the
hospital for an involuntary psychiatric evaluation,
the facts and circumstances supported an objectively
reasonable basis for believing that leaving the guns in
Petitioner’s home, accessible to him, posed a “serious
threat” of imminent harm. Id. at 31a. 4 Petitioner had
admitted to police that he retrieved a gun during the
fight with his wife and told her to shoot him. Id. at
5a. Again, officers knew that his wife was so distraught by his behavior that she hid the gun’s magazine, stayed at a motel, and called police the following
morning concerned that he may have committed suicide. Id. at 23a, 25a. And “[t]o cap the matter, the
officers knew that [Petitioner] might soon return to a
contentious domestic environment, that he was ‘sick
of the arguments’ with his wife, and that he was upset
that she had involved the police.” Id. at 31a.
As the First Circuit observed, the officers “had
[no] inkling when [Petitioner] would return or what
his mental state might be upon his return.” Id. at 32a.
Indeed, officers did not know what information would
be relayed to healthcare providers; they did not know
whether “emergency services personnel would monitor [him] to ensure that he was evaluated, let alone
whether” he would be involuntarily admitted under
State emergency certification procedures. Id. And finally, Petitioner’s reticence to submit to an evaluation

4 The First Circuit used “immediate,” but as explained, this
Court’s emergency aid exception requires that the threat be imminent not immediate.

27
and his refusal to answer some of the officers’ questions “could have given an objectively reasonable officer pause about whether he would in fact submit to
an evaluation.” Id. Although State law authorized
the officers to transport Petitioner to the hospital for
an evaluation, it did not authorize them to force him
into submitting. Id. at 33a.
These facts are similar to those found to create
the imminence necessary for the warrantless entry in
Brigham City. There, police entered a home after witnessing a teenager punch an adult in the mouth as he
and three other adults tried to restrain the teenager.
547 U.S. at 406. Respondents argued that the threat
of serious harm was lacking because the adult was
only spitting a little blood into the sink. Id. at 405-06.
But this Court explained that “[n]othing in the
Fourth Amendment required [police] to wait until another blow rendered someone ‘unconscious’ or ‘semiconscious’ or worse before entering.” Id. at 406. After
all, the Court reasoned, “[t]he role of a peace officer
includes preventing violence and restoring order, not
simply rendering first aid to casualties ….” Id. (emphasis added).
Similarly, it was objectively reasonable for police
in this case to believe that they had to act promptly to
prevent Petitioner from injuring himself or others—
they had no way to know when Petitioner would act
on his suicidal threat, when he might return from the
hospital, or whether his state of mind would have improved.

28
In sum, under the totality of the facts and circumstances, there was an objectively reasonable basis for
believing that “a real possibility” existed that Petitioner “might refuse an evaluation and shortly return
home in the same troubled state,” or worse, leading “a
reasonable officer to continue to regard the danger of
leaving firearms in [Petitioner’s] home as immediate
and, accordingly, to err on the side of caution.” Pet.
App. 33a.
CONCLUSION
This Court should reaffirm this Court’s emergency aid exception to the warrant requirement and
hold that the officers’ warrantless actions in this case
fell within that exception.

29
Respectfully submitted.
SEAN D. REYES
Utah Attorney General
MELISSA HOLYOAK*
Utah Solicitor General
THOMAS B. BRUNKER
Deputy Solicitor General, Criminal Appeals
JEFFREY S. GRAY
Search & Seizure Section Director
DAVID SIMPSON
Assistant Solicitor General
350 N. State Street, Suite 230
P.O. Box 142320
Salt Lake City, UT 84114-2320
(801) 538-9600
melissaholyoak@agutah.gov
*Counsel of Record
Counsel for Amici Curiae
State of Utah
Dated: February 18, 2021

30
ADDITIONAL COUNSEL
THOMAS J. MILLER
Attorney General
State of Iowa
JEFF LANDRY
Attorney General
State of Louisiana
AUSTIN KNUDSEN
Attorney General
State of Montana
KEITH ELLISON
Attorney General
State of Minnesota
MIKE HUNTER
Attorney General
State of Oklahoma
ALAN WILSON
Attorney General
State of South Carolina
JASON R. RAVNSBORG
Attorney General
State of South Dakota
KEN PAXTON
Attorney General
State of Texas

